Report No. DODIG-2013-100            July 2, 2013




Contract Administration of the Subsistence Prime
 Vendor Contract for Afghanistan Improved, but
         Additional Actions are Needed
Additional Copies
To obtain additional copies of this report, visit the Department of Defense Inspector
General website at http://www.dodig.mil/pubs/index.cfm, or contact the Secondary
Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
ASBCA                         Armed Services Board of Contract Appeals
CONUS                         Continental United States
DCAA                          Defense Contract Audit Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
DFAS                          Defense Finance and Accounting Services
DLA                           Defense Logistics Agency
FAR                           Federal Acquisition Regulation
QASP                          Quality Assurance Surveillance Plan
OCONUS                        Outside the Continental United States
STORES                        Subsistence Total Order and Receipt Electronic System
USTRANSCOM                    United States Transportation Command
UAE                           United Arab Emirates
                                INSPECTOR GENERAL
                              DEPARTMENT OF DEFENSE
                              4800 MARK CENTER DRIVE
                           ALEXANDRIA, VIRGINIA 22350-1500
                                                                               JUl 2 2013

MEMORANDUM FOR COMMANDER, DEFENSE LOGISTICS AGENCY
                 TROOP SUPPORT

SUBJECT: Contract Administration of the Subsistence Prime Vendor Contract for
         Afghanistan Improved, but Additional Actions are Needed
         (Report No. DODTG-20 13-1 00)

We are providing this report for your review and comment. We considered management
comments on a draft of this report when preparing the final report. Defense Logistics
Agency Troop Support implemented corrective actions to address some of the problems
and risk areas identified in DoD lG Report No. D-2011-047, dated March 2, 20 II .
However, additional actions were still needed for fair and reasonable pricing
determinations; recovery, and refunds of overpayments; and rev iews for costs charged to
the incorrect appropriation. As a result, Defense Logistics Agency Troop Support may
have paid excessive costs for triwalls and airlift of fresh fhtits and vegetables and may
not collect up to $282 million in potential premium transportation overpayments.
Furthermore, there is increased risk for potential Antideficiency Act violations from costs
charged to incorrect appropriations.

DoD Directive 7650.3 requires that recommendations be resolved promptly. We
received com ments from the Vice Director, Defense Logistics Agency on behalf of the
Commander, Defense Logistics Agency Troop Support. The Vice Director's comments
on report Recommendations l.a, 2, and 3 were responsive, and no further comments are
required. However, the Vice Director's comments on report Recommendation I .b, I.e,
and I .d were partially responsive. Based on the Vice Director's comments, we deleted
draft report Recommendation l.b from the report and revised draft report
Recommendation l .c, now l.b. Draft Recommendations I.e through I.e have been
renumbered as Recommendations l.b through J.d. Therefore, we request that the
Commander, Defense Logistics Agency Troop Support provide additional comments on
recommendations l .b, I.e, and l.d by August 1, 20 I 3.

If possible, send a portable document format (.pdf) file contai ning your comments to
audros@dodig.mil. Portable document format (.pdf) copies of your comments must have
the actual signature of the authorizing official for your organization. We are unable to
accept the /Signed/ symbol in place of the actual signature. lfyou arrange to send
classified comments electronica lly, you must send them over the SECRET Internet
Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff Please direct questions to me at
(703) 604-8866 (DSN 664-8866).

                                              ~el-~Ca),L,O
                                               Assistant Tnspector General
                                               Readiness, Operations, and Support
Report No. DODIG-2013-100 (Project No. D2012-D000LD-0086.000)                         July 2, 2013


                Results in Brief: Contract Administration of
                the Subsistence Prime Vendor Contract for
                Afghanistan Improved, but Additional
                Actions are Needed
                                                            appropriate documentation, used flawed
What We Did                                                 methodologies, misinterpreted the Federal
We determined whether Defense Logistics                     Acquisition Regulation for pricing
Agency Troop Support implemented the                        determinations, overlooked adding refund
recommendations in Audit Report No.                         guidance into their standard operating
D-2011-047 and determined whether corrective                procedures, and believed performing a
actions addressed the problems. Due to ongoing              judgmental sample of subsistence contracts was
litigation, we did not determine whether                    sufficient. As a result, Defense Logistics
corrective actions regarding the previously                 Agency Troop Support may have paid excessive
recommended premium transportation pricing                  costs for triwalls and airlift of fresh fruits and
determination and recovery of overpayments                  vegetables and may not be able to collect up to
effectively addressed those problems. We will               $282 million in potential premium
review these actions after the results of litigation.       transportation overpayments. Furthermore,
                                                            there is increased risk for potential
What We Found                                               Antideficiency Act violations from costs
                                                            charged to incorrect appropriations.
Contracting and finance officials at Defense
Logistics Agency Troop Support implemented
corrective actions to address some of the
                                                            What We Recommend
problems and risk areas identified in the report.           We recommend the Commander, Defense
These actions included implementing a quality               Logistics Agency Troop Support implement
assurance surveillance plan, performing contract            corrective actions to address all open
administration reviews, and correcting                      recommendations in Audit Report No.
appropriation mischarges. However, the                      D-2011-047, develop a time-phased plan with
officials did not:                                          measurable goals and metrics regarding
                                                            implementing the open recommendations, and
    •   adequately support the pricing                      educate contracting officers to maintain all
        determinations for triwalls and airlift of          supporting documentation used in fair and
        fresh fruits and vegetables,                        reasonable determinations.
    •   recover potential overpayments to the
        subsistence prime vendor contractor,                Management Comments and
    •   establish controls for managing refunds             Our Response
        of subsistence prime vendor                         Comments from the Defense Logistics Agency
        overpayments, and                                   were generally responsive. Based on management
    •   review all subsistence prime vendor                 comments, we deleted draft recommendation 1.b
        contracts to ensure costs were charged to           and revised 1.c, now 1.b. We request that the
        the correct appropriation.                          Vice Director provide additional comments to
                                                            Recommendations 1.b, 1.c, and 1.d by August 1,
These problems occurred because contracting                 2013. Please see the Recommendations Table on
and finance officials did not maintain                      the back of this page.

                                                        i
Report No. DODIG-2013-100 (Project No. D2012-D000LD-0086.000)       July 2, 2013

Recommendations Table

        Management                    Recommendations      No Additional Comments
                                    Requiring Comment               Required
Commander, Defense Logistics     1.b, 1.c, and 1.d        1.a, 2, 3
Agency Troop Support

Please provide comments by August 1, 2013.




                                             ii
Table of Contents

Introduction                                                                   1

      Objective                                                               1
      Background on the Subsistence Prime Vendor Program                      1
      Internal Control Weaknesses in the Subsistence Prime Vendor Program     4

Finding. Corrective Actions Implemented, but Additional Actions Needed
to Fully Address Deficiencies                                                  5

      Corrective Actions Implemented for Some of the Recommendations           6
      Corrective Actions Needed to Mitigate the Remaining Risks
          Associated with Contract Administration and Use of Appropriations   9
      Follow-on Reviews Required to Determine Whether Corrective Actions
          Addressed Problems                                                  20
      Conclusion                                                              22
      Recommendations, Management Comments, and Our Response                  22

Appendixes

      A. Scope and Methodology                                                27
             Computer-Processed Data Were Sufficiently Reliable               27
             Use of Technical Assistance                                      28
             Prior Coverage                                                   28
      B. Status of Corrective Actions for DoD IG Report No. D-2011-047
            Recommendations                                                   29
      C. Regulatory Guidance                                                  30

Management Comments
     Defense Logistics Agency                                                 33
Introduction
Objective
Our objective was to determine whether Defense Logistics Agency (DLA) Troop Support
implemented the recommendations in DoD Office of Inspector General Report No.
D-2011-047, “Improvements Needed in Contract Administration of the Subsistence
Prime Vendor Contract for Afghanistan,” March 2, 2011, and to determine whether
corrective actions addressed the problems.

To accomplish this objective, we reviewed the status of implementation of the
14 recommendations in the report that addressed internal control deficiencies identified in
DLA Troop Support contract administration and charging of funds to the correct fiscal
year appropriations. See Appendix A for a discussion of our scope and methodology.

Background on the Subsistence Prime Vendor Program
The Subsistence Prime Vendor Program began in 1993 to reduce DLA warehouses
stocked with millions of dollars of material. Expansive inventories tie up valuable dollars
and require expensive storage, handling, and second destination charges. Prime Vendor
bypasses the clogged supply pipeline and lays a new streamlined pipeline providing
fresher product for the customer. This concept uses commercial distributors to deliver a
full range of food items and beverages directly to customers in a specific geographic area.
These are negotiated acquisitions using best value source solicitation procedures, where
the contracting officer bases the award on factors other than cost or price alone. The
contracts, with multiple renewable years, emphasize quality, availability, and minimum
delivery lead-time.

Subsistence Prime Vendor Contract
On June 3, 2005, the contracting officer issued the contract (SPM300-05-D-3130) to the
subsistence prime vendor, to distribute a full line of food and nonfood products to
authorized customers in Afghanistan. DLA Troop Support uses the Subsistence Prime
Vendor Program to provide worldwide dining hall support to its authorized customers.
The subsistence prime vendor is a concept of support whereby a single commercial
distributor serves as the major provider of products to various Federal customers within a
geographical region. The U.S. Transportation Command (USTRANSCOM) usually
accomplishes transportation via separate contracts. The subsistence prime vendor retains
ownership of the items throughout the pipeline until the ordering activity accepts the
items.

Verbal Change Order
On August 26, 2005, the contracting officer issued a verbal change order for the
subsistence prime vendor to provide food and distribution support to another
68 activities in Afghanistan in addition to the original 4 activities. Security concerns
within the warzone and the austere environment, to include the lack of developed
roadways in Afghanistan, prevented the subsistence prime vendor from always using


                                             1
ground transportation to service the additional activities. Consequently, the contracting
officer verbally authorized the subsistence prime vendor to support the activities using a
combination of fixed-wing aircraft, helicopters, and ground transportation. Nearly a year
later, on August 2, 2006, the contracting officer issued contract modification 10 to
formalize the verbal change order.

Contract Modification 12 Establishes Reimbursement Rates
On October 10, 2006, the contracting officer issued contract modification 12. In the
modification, the parties agreed that, from July 2006 forward, Troop Support personnel
would reimburse the subsistence prime vendor at a 75 percent rate 1 listed in contract
modification 10, before the results of a Defense Contract Audit Agency (DCAA) report,
dated August 2011 were used to aid in definitizing the final contract rates.

Follow-up on DoD IG Report No. D-2011-047
On March 2, 2011, the Department of Defense Inspector General (DoD IG) issued Report
No. D-2011-047 titled “Improvements Needed in Contract Administration of the
Subsistence Prime Vendor Contract for Afghanistan.” The report stated that subsistence
contracting officials at DLA Troop Support did not provide sufficient oversight of
contract costs and performance, did not adhere to the Federal Acquisition Regulation
(FAR) and the Defense Federal Acquisition Regulation Supplement (DFARS), and did
not develop a quality assurance surveillance plan (QASP) and written procedures to
monitor contractor costs and performance. As a result, DoD IG Report No. D-2011-047
reported that DLA Troop Support personnel:

    •   overpaid the subsistence prime vendor potentially $98.4 million in transportation
        costs;

    •   overpaid the subsistence prime vendor approximately $25.9 million for triwalls; 2

    •   paid $454.9 million to the prime vendor for airlifting fresh fruit and vegetables
        without incorporating the airlift requirement in the contract and without
        documenting whether the airlift price of $3.74 per pound was fair and reasonable;

    •   did not validate whether $103.6 million in triwall costs was accurate and
        chargeable to the contract;

    •   did not monitor the accountability of Government-furnished material; and

    •   billed the Army $56.5 million in transportation, triwall, and storage costs to the
        incorrect fiscal year appropriation for FYs 2006 through 2009.

1
  DLA Troop Support used this rate for premium transportation prices before definitization. However, it
was not used for triwall prices, which DLA Troop Support indicated were determined fair and reasonable
back in 2006, although it wasn’t documented then.
2
  Triwalls are three-layered corrugated boxes used for packaging and shipping chilled or frozen food
products, such as fresh fruits and vegetables, ice cream, meat, and dairy products.


                                                    2
       Table 1 provides a list of the recommendations from the report. Appendix B provides a
       summary of the status for each these recommendations.

                        Table 1. DoD IG Report No. D-2011-047 Recommendations
Rec.                                              Recommendation                                                    See Page
 No.                                                                                                                   No.
A1.a    Determine fair and reasonable prices for transportation and triwalls and use those prices to definitize     9 and 20
        the August 2005 verbal change order, which was formalized in Modification 10.
A1.b    Recover triwall overpayments ($25.9 million as of May 28, 2010) that were not in accordance with            11
        contract modification 12, and use contract modification 12 reimbursement rates to pay future prime
        vendor triwall bills, until such time as fair and reasonable triwall rates are determined and the verbal
        change order of August 2005 is definitized.
A1.c    Compute and recover the overpayments of the difference between the reimbursement rates paid to the          12 and 21
        prime vendor and the finalized rates since December 2005, after the rates are established.
A1.d    Coordinate with Defense Logistics Agency Finance, Troop Support personnel to refund the Army for            13, 14
        overpayments recovered from the prime vendor in response to recommendations A.1.c and A.2.c, and            and 22
        associated surcharges that were applied to the overpayments since December 2005.
A2.a    Request assistance from the Defense Contract Audit Agency in determining a fair and reasonable              14
        price for airlift requirements from Sharjah, United Arab Emirates.
A2.b    Use the results of the Defense Contract Audit Agency assistance to determine and document a fair            15
        and reasonable price for airlift requirements from Sharjah into Afghanistan and formally modify the
        contract to incorporate the airlift requirement.
A2.c    Compute the difference between the $3.74 per pound rate paid to the prime vendor and the finalized          16
        rate since December 2005, after the airlift rate is established. If applicable, recover any differences.
A3      Develop a quality assurance surveillance plan and written procedures for monitoring the prime               6
        vendor’s costs and performance. The plan and procedures should address areas to include the: (1)
        validation of triwall invoices, to include verification of the quantity of triwall delivered and that the
        quantity delivered by road to non-forward operating bases are excluded from billings,
        (2) verification of fill rates, to include the requirement that reviews of the contract fill rate
        calculations are documented and retained, and (3) appointment of Property Administrator to monitor
        accountability of Government-furnished material, to ensure Government property is adequately
        safeguarded.
A4.a    Perform a review of the contract administration of the prime vendor subsistence contract in light of        7
        (1) excessive delay in definitizing the verbal change order of August 2005, (2) the payment of $454.9
        million in airlift costs without having a requirement for the service in the contract, (3) agreement to
        pay 100 percent of triwall provisional rates without documenting how the rates were determined to be
        fair and reasonable, and (4) the lack of a quality assurance surveillance plan and written procedures to
        monitor contractor costs and performance.
A4.b    Initiate as appropriate any administrative actions warranted by the review.                                 7
B1      Refund $56.5 million to the Army in appropriated funds identified by the audit that were not charged        8
        to the appropriate FY appropriation.
B2      Bill $56.5 million to the Army in appropriated funds identified by the audit to the appropriate FY          8
        appropriation.
B3      Establish controls to ensure that future costs on subsistence prime vendor contracts, to include            17
        refunds of prime vendor overpayments and costs on invoices that cross FY, are charged to the
        appropriate FY appropriation.
B4      Conduct reviews of all subsistence prime vendor contracts to determine whether costs were charged           18
        to the appropriate FY appropriation. If costs are identified that were incorrectly charged, initiate
        corrective actions.




                                                            3
Internal Control Weaknesses in the Subsistence Prime
Vendor Program
DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,” dated
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses associated with DLA Troop Support’s contracting officer and Finance staffs’
administration of this contract.

The contracting officer did not support fair and reasonable pricing determinations for
triwalls or airlift of fresh fruits and vegetables because she used flawed methodologies,
misinterpreted the FAR, and did not maintain supporting documentation for the triwall
pricing determination. In addition, DLA Troop Support Finance personnel overlooked
including guidance in standard operating procedures on how they would address refunds
of subsistence prime vendor overpayments for costs on invoices that crossed fiscal years.
See Appendix C for applicable criteria.

We will provide a copy of the report to the senior official responsible for internal controls
in DLA.




                                             4
Finding. Corrective Actions Implemented,
but Additional Actions Needed to Fully
Address Deficiencies
The contracting and finance officials at DLA Troop Support implemented corrective
actions to address problems and risk areas identified in DoD IG Report
No. D-2011-047, “Improvements Needed in Contract Administration of the Subsistence
Prime Vendor Contract for Afghanistan,” March 2, 2011. 3 These actions included
implementing a QASP, reviewing contract administration, determining whether there was
a need for administrative actions, and correcting $56.5 million in funds refunded and
billed to the wrong fiscal year.

However, DLA Troop Support did not implement effective corrective actions to resolve
deficiencies associated with determining fair and reasonable pricing for triwalls and
airlift of fresh fruits and vegetables, recovering overpayments, establishing controls for
managing refunds of subsistence prime vendor overpayments, and reviewing all
subsistence prime vendor contracts to ensure costs were charged to the appropriate fiscal
year appropriation.

These problems occurred because the contracting officer did not maintain documentation
on pricing, used flawed methodologies, and misinterpreted the FAR for pricing
determinations. In addition, financial personnel overlooked adding guidance concerning
refunds into their standard operating procedures and believed performing a judgmental
sample of subsistence contracts was sufficient to ensure costs were charged to the correct
fiscal year appropriation.

As a result, DLA Troop Support may have paid excessive costs for triwalls and airlift of
fresh fruits and vegetables and may not collect up to $282 million in potential premium
transportation overpayments. Furthermore, there is increased risk for potential
Antideficiency Act violations from invoiced costs charged to incorrect fiscal year
appropriations.




3
  Due to ongoing litigation, an audit follow-up review is required to determine whether DLA Troop Support
effectively addressed determining fair and reasonable prices for premium transportation services,
calculating and recovering overpayments for premium transportation, and refunding premium
transportation overpayments to the Army. The litigation pertains to the subsistence prime vendor’s dispute
with the contracting officer’s unilateral definitization of the prices for premium transportation rates (for
example. - fixed-wing, rotary-wing, and ground transportation) that resulted in a calculated overpayment of
about $756 million. Both the triwall and airlift of fresh fruits and vegetables rates are not part of the
litigation.


                                                     5
Corrective Actions Implemented for Some of the
Recommendations
DLA Troop Support implemented corrective actions for some of the recommendations in
DoD IG Report No. D-2011-047, which addressed problems and risks pertaining to:

    • developing a QASP and written procedures for monitoring prime vendor costs
      and performance,
    • contract administration reviews,
    • administrative actions, and
    • $56.5 million in funds refunded and billed to the wrong fiscal year.

Quality Assurance Surveillance Plan for Monitoring the
Subsistence Prime Vendor’s Costs and Performance
Implemented
The report recommended that the contracting officer develop a QASP and written
procedures for monitoring the subsistence prime vendor’s costs and performance and that
the plan should address areas to include:

    •   validation of triwall invoices, to include verification of the quantity of triwalls
        delivered and that the quantity delivered by road to nonforward operating bases
        are excluded from billings;

    •   verification of fill rates, to include the requirement that reviews of the contract fill
        rate calculations are documented and retained; and

    •   appointment of a Property Administrator to monitor accountability of
        Government-furnished material, to ensure Government property is adequately
        safeguarded. (Table 1, Recommendation A3) 4

DLA Troop Support has developed a QASP, dated 2012, that addressed verification of
fill rates and appointment of a Property Administrator to monitor Government-furnished
material.

The QASP did not include monitoring procedures to validate triwall invoices because
those prices were subsequently negotiated into an all-inclusive price. The negotiated
price included airlift and triwall rates based on net product weight only. DLA Troop
Support personnel stated that they monitored and validated costs through purchase orders
in the Subsistence Total Order and Receipt Electronic System (STORES).

The contracting officer representative and a contract specialist stated they verified the fill
rates and documented them in a weekly report. DLA Troop Support assigned four


4
 See Table 1 to reconcile the individual references to the specific recommendations from DoD IG Report
No. D-2011-047.


                                                   6
contracting officer representatives to monitor accountability of Government-furnished
material. We consider this recommendation closed. No further action is necessary.

Review of the Contract Administration of the Subsistence Prime
Vendor Contract for Afghanistan Performed
The report stated that DLA Troop Support contracting officials did not provide sufficient
oversight of the subsistence prime vendor contract for Afghanistan and recommended
that DLA review the contract’s administration in light of DoD IG’s findings. The report
recommended that the Commander, DLA Troop Support, conduct an internal review of
those findings specific to the following problems identified: (1) the excessive delay in
definitizing the verbal change order of August 2005; (2) the payment of $454.9 million in
airlift costs without having a requirement for the service in the contract; (3) the
agreement to pay 100 percent of triwall provisional rates without documenting how the
rates were determined to be fair and reasonable, and (4) the lack of a QASP and written
procedures to monitor contractor costs and performance.
(Table 1, Recommendation A4.a)

DLA Troop Support senior officials performed a review of the subsistence prime vendor
contract administration in response to the recommendation. After review of the facts,
they issued a memorandum for the record, dated May 7, 2012, that documented
conclusions of the former Commander, the Deputy Commander, and the Executive
Director, Contracting and Acquisition Management. We consider this recommendation
closed. No further action is necessary.

DLA Troop Support Determined Administrative Actions Were
Not Warranted
The report stated that DLA Troop Support contracting officials did not provide sufficient
oversight of the subsistence prime vendor contract for Afghanistan and recommended
DLA review the contract’s administration in light of DoD IG’s findings and initiate
appropriate administrative action as warranted. (Table 1, Recommendation A4.b) DLA
Troop Support senior officials, with the Commander, DLA’s concurrence, determined
administrative actions against any individuals related to the subsistence prime vendor
contract’s administration were unwarranted.

DLA Troop Support senior officials provided the following rationale for abstaining from
administrative actions against personnel responsible for contract administration of the
subsistence prime vendor contract for Afghanistan:

   •   This was a unique contractual situation, which had to be negotiated after award in
       an expedited fashion due to wartime exigencies.

   •   This was a unique requirement to contract for security and premium
       transportation that DLA Troop Support never contracted for in the past. In fact,
       this was a new requirement for the U.S. Government.




                                            7
   •   The contracting officer for the contract changed during the duration of the
       contract.

   •   DLA Troop Support and DCAA made numerous attempts over a period of several
       years to obtain data from the subsistence prime vendor to definitize the change.
       However, the subsistence prime vendor did not cooperate or supplied inadequate
       data, which made definitization impossible.

   •   The subsistence prime vendor is a foreign-based contractor located in Dubai,
       which further complicates the difficulty in obtaining data.

   •   Senior officials were unable to resolve the definitization impasse with the
       subsistence prime vendor.

   •   Working with three different directors, and through required points of contact—
       most notably DLA Acquisition and Legal personnel—caused significant delays.

We consider this recommendation closed. No further action is necessary.

Implementation of Corrective Actions Related to Appropriations
Charged to the Wrong Fiscal Year
The report stated that DLA Troop Support personnel billed the Army about
$56.5 million in transportation, triwall, and storage costs incurred for FYs 2006 through
2009 to the incorrect fiscal year appropriation on the subsistence prime vendor contract
for Afghanistan. The report recommended that the Commander, DLA Troop Support
refund $56.5 million to the Army in appropriated funds that were charged to an incorrect
fiscal year appropriation. (Table 1, Recommendation B1)

DLA Troop Support Finance personnel provided
documentation, including billing reports, credit         We obtained and reviewed
                                                        proposed billing adjustments
memos, debit memos, and order and receipt
                                                       from the Defense Finance and
information reports, to support corrective actions
                                                          Accounting Services and
taken to refund $56.5 million in funds to the Army
                                                        verified that the responsible
that were charged to an incorrect fiscal year
                                                            parties corrected the
appropriation. We obtained and reviewed proposed
billing adjustments from the Defense Finance and                transactions.
Accounting Services (DFAS) and verified that the responsible parties corrected the
transactions. We consider this recommendation closed. No further action is necessary.

In addition, the report recommended that the Commander, DLA Troop Support, bill
$56.5 million to the Army in appropriated funds to the correct fiscal year appropriation.
(Table 1, Recommendation B2)

DLA Troop Support Finance personnel provided documentation that they took corrective
actions to bill $56.5 million in funds to the Army that they originally charged to an
incorrect fiscal year appropriation. We obtained and reviewed proposed billing


                                             8
adjustments from DFAS and verified that the responsible parties corrected the
transactions properly. We consider this recommendation closed. No further action is
necessary.

Corrective Actions Needed to Mitigate the Remaining
Risks Associated with Contract Administration and Use
of Appropriations 5
DLA Troop Support did not effectively implement corrective actions to mitigate some
problems and risks associated with:

    •    determining fair and reasonable prices 6 for triwalls and fresh fruits and vegetables
         airlift,
    •    establishing controls for refunds of subsistence prime vendor overpayments, and
    •    reviewing costs charged to the correct fiscal year appropriation.

Problems with Fair and Reasonable Pricing Determination for
Definitized Triwall Prices
The report stated that the contracting officer did not definitize or issue contract
modifications in a timely manner, as required by the FAR and the DFARS. Specifically,
the contracting officer did not document that higher reimbursement rates for triwalls were
fair and reasonable. The report recommended that the contracting officer for subsistence
support in Afghanistan determine fair and reasonable prices for triwalls and use those
prices to definitize the August 2005 verbal change order. (Table 1, Recommendation
A1.a – Triwall Only)

DLA Troop Support’s current contracting officer still could not support the fair and
reasonable price determination for triwalls as required by FAR 15.404-1(b)(2)(ii) and
FAR Part 10.002(e). This occurred because the contracting officer did not maintain
supporting documentation of historic price comparison records quoted in her pricing
determination and used prices from FY 2009 to definitize prices from FY 2005.

DLA officials stated that the original contracting officer determined the $241 per chilled
and $302 per frozen triwall prices to be fair and reasonable in 2006 and acknowledged
the determination was not documented then. The current contracting officer finalized
these prices in contract modification P00102, dated August 26, 2011. However, the
current contracting officer did not provide adequate documentation supporting her own


5
  Some of the individual recommendations from DoD IG Report No.D-2011-047 covered multiple subjects.
For example, A1.a included recommended corrective actions for both triwall and premium transportation
pricing. Progress in one subject area was not mutually exclusive to the other. Thus, the extent of DLA’s
corrective actions is represented in multiple sub-sections within our report for recommendations A1.a,
A1.c, and A1.d.
6
  DLA stated the original contracting officer determined the prices for airlift of fresh fruits and vegetables
and triwalls were fair and reasonable back in 2005 and 2006 respectively, but acknowledged her
determinations were not officially documented in the contract files.


                                                      9
fair and reasonable determination of those same prices, dated November 6, 2009, or for
her re-documentation of her determination, dated May 24, 2011. Furthermore, the
current contracting officer used a flawed pricing determination methodology by including
prices from FY 2009 in her own analysis to definitize FY 2005 prices.

We consider the triwall portion of the recommendation closed because DLA Troop
Support can take no further action, as the contracting officer indicated no other prices
were available and cited the subsistence prime vendor’s refusal to provide cost data as a
contributing factor. In addition, the contract ends no later than December 2013, even
with a 1-year bridge contract awarded, and may potentially end sooner if the new
subsistence prime vendor is operationally ready to begin work before then.

Federal Acquisition Regulation Noncompliance
The current contracting officer cited FAR 15.404-1(b)(2)(ii) as the pricing analysis
technique she used to make her fair and reasonable determination for triwall prices. FAR
                                       15.404-1(b)(2)(ii) states “comparison of the
   The contracting officer did not     proposed prices to historical prices paid, whether
   establish the reasonableness of     by the Government or other than the Government,
    those triwall prices due to her    for the same or similar items” to determine a fair
        inability to provide the       and reasonable price. However, the contracting
      supporting records for the       officer did not establish the reasonableness of those
     comparison vendors’ prices.       triwall prices due to her inability to provide some
of the supporting records for the comparison vendors’ prices.

FAR Part 10.002(e) states “Agencies should document the results of market research in a
manner appropriate to the size and complexity of the acquisition.” The original 60-month
fixed-price, indefinite-quantity contract was valued at $726.2 million. In addition, DLA
Troop Support’s former Commander stated in a memorandum, dated May 7, 2012, that it
was a unique contractual situation because the contract had to be negotiated in an
expedited fashion due to wartime exigencies and was for services they never contracted
for in the past. These facts reinforce that the subsistence prime vendor contract is both a
large and complex acquisition, which would advocate maintaining thorough
documentation of the contracting officer’s decisions.

Inadequate Support and Flawed Methodology for Triwall Fair and
Reasonable Pricing Determination
The contracting officer did not provide adequate support for the two 7 comparison
vendors’ prices used in her November 6, 2009, fair and reasonable triwall pricing
determination (re-documented on May 24, 2011) and used the 2009 price from a bridge
contract for one of them. For one comparison vendor, the contracting officer used a 2009
chilled triwall price of $.60 per pound instead of that vendor’s originally contracted $.50
per pound price, which was the June 2, 2003, historical price preceding the 2005 contract

7
 A third comparison vendor used in the contracting officer’s November 6, 2009, fair and reasonable
pricing determination was removed from her May 24, 2011, re-documentation, noting this vendor was to be
excluded from her determination due to an indictment against the vendor.


                                                  10
award to the subsistence prime vendor. The contracting officer applied the per pound
price against subsistence prime vendor records of cumulative pounds and numbers of
chilled triwalls shipped available at that time to calculate a comparable price per chilled
triwall for this vendor. However, the contracting officer did not have the specific
subsistence prime vendor records used in those calculations to provide to us.
Additionally, this vendor did not supply frozen triwalls, so the contracting officer
subsequently used this vendor’s price data only to support the subsistence prime vendor’s
chilled triwall price as fair and reasonable.

For the other comparison vendor, the contracting officer did not provide the specific
documentation used to calculate the chilled and frozen triwall prices because she
informed us that this “contract was not modified to incorporate the triwall rates” at the
time of her determination. The contracting officer provided a determination and findings
document and modification after the fact, both dated April 18, 2011, which documented
the comparison vendor’s triwall pricing as fair and reasonable. The contracting officer
stated that she received this information after her May 24, 2011, re-documentation of the
fair and reasonable pricing determination. However, this information was not relevant to
our request for the original support for the contracting officer’s determinations since it
occurred after the fact and used the subsistence prime vendor’s own triwall prices in
making the determination. Although the determination and findings document noted that
subsistence prime vendor’s price was weighted less than other commercial carrier prices
used in comparison, this weighting design was not documented or transparent.

Although the contracting officer finalized triwall rates in contract modification P00102,
dated August 26, 2011, she did not meet FAR requirements to support the fair and
reasonable pricing determination or to establish the reasonableness of the comparison
prices. While DLA Troop Support was not assured it received fair and reasonable prices
for triwalls, we consider the triwall portion of the recommendation closed because the
contracting officer was unable to adequately support the status quo triwall prices in the
fair and reasonable determination, 6 ½ years beyond the contract’s December 3, 2005,
award date, and indicated no other prices were available to those finalized in contract
modification P00102. The Commander, DLA Troop Support needs to educate
contracting officers on the requirement to maintain proper and timely documentation for
all pricing determinations.

Triwall Overpayment of $25.9 Million Asserted As Not Valid
The report stated that DLA Troop Support overpaid the subsistence prime vendor about
$25.9 million for triwalls based on calculating the 25 percent price difference between the
total price of chilled and frozen triwalls and a 75 percent reimbursement rate identified in
contract modification 12, applicable to those costs. The report recommended that the
contracting officer recover triwall overpayments ($25.9 million as of May 28, 2010) that
were not in accordance with contract modification 12 and use contract modification 12
reimbursement rates to pay future prime vendor triwall bills until fair and reasonable
triwall rates are determined and the verbal change order of August 2005 is definitized.
(Table 1, Recommendation A1.b)



                                            11
DLA Troop Support officials indicated the 75 percent contracted reimbursement rate
used to calculate the triwall overpayment only pertained to premium transportation
prices. A DLA Headquarters official stated in a response dated February 20, 2012,
“because these (triwall) rates were found fair and reasonable in 2006, they were never
considered undefinitized, so that the 75 percent provisional billing rate was not
applicable.” Therefore, DLA Troop Support disputed the validity of the report’s finding
and did not collect the $25.9 million in overpayments identified.

However, a memorandum from the former Acting
Commander, DLA Troop Support, dated                     A memorandum from the former
March 10, 2011, contradicted the DLA officials’         Acting Commander, DLA Troop
statements that the 75 percent reimbursement rates      Support, dated March 10, 2011,
were not applicable to triwalls. In the                  contradicted the DLA officials’
memorandum to the subsistence prime vendor,               statements that the 75 percent
DLA Troop Support tried to obtain a detailed              reimbursement rates were not
triwall cost breakdown for a planned DCAA audit               applicable to triwalls.
of chilled and frozen triwall costs on the basis that
the “tentative reimbursement rate of 75 percent to the subsistence prime vendor…which
includes specific rates for triwalls…were subject to DCAA audit.” DLA Troop Support
further noted that when the subsistence prime vendor signed the related contract
modification, it had agreed to auditing of such rates.

The DCAA audit of triwall prices never occurred because the subsistence prime vendor
refused to provide the cost data even after multiple requests from DLA Troop Support
officials, including their Commander. The subsistence prime vendor did not agree that
DLA was entitled to the information because the contract was under a firm, fixed-price
contract that was priced competitively on a commercial basis.

On January 24, 2013, the DLA Deputy Director of Subsistence stated DLA Troop
Support rechecked the historical record and concurred with the subsistence prime vendor
that back in 2005 through 2006 timeframe, the prices for the triwalls were determined to
be fair and reasonable by the contracting officer, although it was not documented then.
Therefore, no further correspondence occurred between DLA Troop Support and the
subsistence prime vendor regarding an audit for the triwalls and the status quo prices
were finalized in contract modification P00102, dated August 26, 2011. We consider this
recommendation closed because DLA headquarters officials notified us on
April 18, 2013, and we agreed that they can take no further action due to the bilateral
agreement between the government and the subsistence prime vendor that definitized
triwall prices in contract modification P00102. In addition, the contracting officer
indicated no other prices were available and cited the subsistence prime vendor’s refusal
to provide cost data as a contributing factor.

No Recoverable Triwall Overpayments
The report recommended that DLA Troop Support compute and recover the
overpayments of the difference between the triwall reimbursement rates paid to the
subsistence prime vendor and the finalized rates since December 2005, after the rates


                                           12
were established as a result of implementing the triwall portion of recommendation A1.a.
This is a separate overpayment issue from the $25.9 million overpayment discussed
above. This involves recovering any difference between the previously audited $241 per
chilled and $302 per frozen triwall status quo prices and the finalized rates resulting from
the fair and reasonable pricing determination in recommendation A1.a.
(Table 1, Recommendation A1.c – Triwall Only)

DLA officials stated that the original contracting officer determined the $241 per chilled
and $302 per frozen triwall prices to be fair and reasonable in 2006, although it was not
documented. Therefore, they responded that there were no recoverable overpayments for
triwalls after finalizing the status quo prices. However, their response and conclusions
were a direct result of the contracting officer’s inadequately supported fair and reasonable
pricing determination in 2006, and the next contracting officer’s inadequately supported
fair and reasonable determination of those same prices, dated November 6, 2009,
(re-documented on May 24, 2011).

We consider the triwall portion of the recommendation closed because DLA Troop
Support can take no further action, as the contracting officer indicated no other viable
alternative prices for comparison were available to those finalized in contract
modification P00102, dated August 26, 2011, and cited the subsistence prime vendor’s
refusal to provide cost data as a contributing factor. In addition, the contract ends no later
than December 2013, even with a 1-year bridge contract awarded, and may potentially
end sooner if the new subsistence prime vendor is operationally ready to begin work
before then. The Commander, DLA Troop Support needs to educate contracting officers
on the requirement to maintain proper and timely documentation for all pricing
determinations.

Coordination with DLA Finance, Troop Support Personnel for
Triwall Overpayments Not Done
The report recommended that the contracting officer coordinate with DLA Troop Support
Finance personnel to refund the Army for any triwall overpayments and associated
surcharges recovered from the subsistence prime vendor, given the previously reported
triwall fair and reasonable pricing problems. (Table 1, Recommendation A1.d – Triwall
Only)

DLA Troop Support coordination with DLA Troop Support Finance was contingent upon
an overpayment calculation for the triwall prices once an updated fair and reasonable
pricing determination was conducted. Since DLA Troop Support reported no recoverable
overpayments from the subsistence prime vendor based on finalizing the rates questioned
in the previous audit, no coordination was conducted. We consider the triwall portion of
the recommendation closed because DLA Troop Support can take no further action, as
the contracting officer indicated no other prices were available to those finalized in
contract modification P00102 dated August 26, 2011.




                                             13
No Coordination of Fresh Fruits and Vegetables Airlift
Overpayments
The report recommended that the contracting officer coordinate with DLA Troop Support
Finance personnel to refund the Army for any overpayments and associated surcharges
for airlift of fresh fruits and vegetables recovered from the subsistence prime vendor.
(Table 1, Recommendation A1.d – Fresh Fruits and Vegetables Only)

DLA Troop Support coordination with DLA Troop Support Finance was contingent upon
an overpayment calculation for any difference in the finalized fresh fruits and vegetables
airlift rate. Because DLA Troop Support reported no recoverable overpayments from the
subsistence prime vendor based on definitizing the previously audited rate for airlift of
fresh fruits and vegetables, there was nothing to coordinate with DLA Troop Support
Finance (discussed in the three following sub-sections of this report).

We consider the recommendation closed because DLA headquarters officials notified us
on April 18, 2013, and we agreed that they can take no further action, as it was contingent
on the results of implementation of corrective actions in response to report
recommendation A.2.c.

No Request to Have DCAA Determine Fair and Reasonable
Prices for Fresh Fruits and Vegetables Airlift
The report stated that DLA Troop Support personnel paid the subsistence prime vendor
over $454.9 million for services to airlift fresh fruits and vegetables from Sharjah, United
Arab Emirates (UAE), into Afghanistan from December 13, 2005, through May 28, 2010,
without incorporating the airlift requirement in the contract or documenting that the airlift
price of $3.74 per pound was fair and reasonable. The report recommended the
contracting officer request assistance from DCAA in determining a fair and reasonable
price for airlift requirements from Sharjah, UAE, to Afghanistan. (Table 1,
Recommendation A2.a)

DLA Troop Support did not request assistance from DCAA to determine a fair and
reasonable price for fresh fruits and vegetables airlift requirements from Sharjah, UAE, to
Afghanistan. This occurred because subsistence contract personnel thought they would
be unable to get pricing data from the subsistence prime vendor. Specifically, the
contracting officer, after undocumented consultation with DLA Troop Support’s Legal
Counsel, based her decision on the subsistence prime vendor’s previous denial to provide
data for chill and frozen triwalls and premium transportation pricing.

We consider the recommendation closed because DLA headquarters officials notified us
on April 18, 2013, and we agreed that no adjustment to the airlift of fresh fruits and
vegetable rate is legally allowable without the prime vendor’s agreement due to the
bilateral agreement between the government and the subsistence prime vendor that the
contracting officer determined to be fair and reasonable via contract modification
P00101, dated August 26, 2011. However, DLA Troop Support’s lack of effort to
request DCAA assistance in this case may have exacerbated problems with the



                                             14
contracting officer’s pricing determination for the airlift of fresh fruits and vegetable rate,
which we explain in the next sub-section.

Questionable Fair and Reasonable Pricing Determination
Methodology for Airlift of Fresh Fruits and Vegetables
The report stated that DLA Troop Support personnel paid the subsistence prime vendor
approximately $454.9 million for services to airlift fresh fruits and vegetables from
Sharjah, UAE, into Afghanistan from December 13, 2005, through May 28, 2010,
without incorporating the airlift requirement in the contract or documenting that the airlift
price of $3.74 per pound was fair and reasonable. The report recommended that DLA
use the results of the DCAA assistance to determine and document a fair and reasonable
price for airlift requirements from Sharjah, UAE, into Afghanistan and formally modify
the contract to incorporate the airlift requirement. (Table 1, Recommendation A2.b)

The current contracting officer incorporated the $3.74 per pound price into the contract
via modification P00101, dated August 26, 2011. However, DLA Troop Support did not
support their fair and reasonable pricing determination for airlift of fresh fruits and
vegetables because the contracting officer and DLA Troop Support Office of Counsel
                                          misinterpreted FAR 15.404-1(b)(2)(ii) to allow
    The contracting officer did not       the use of not-to-exceed 8 tender 9 rates for
    use available actual prices to        comparison to the subsistence prime vendor’s
    determine fair and reasonable         price, rather than historical actual prices.
     pricing for the airlift of fresh     Specifically, the contracting officer did not use
      fruits and vegetables from          available actual prices to determine fair and
   Sharjah, UAE, into Afghanistan.        reasonable pricing for the airlift of fresh fruits and
vegetables from Sharjah, UAE, into Afghanistan. As a result, DLA may have paid higher
costs for fresh fruits and vegetables airlift services.

Federal Acquisition Regulation Misinterpreted
The contracting officer stated that she established price reasonableness for the fresh fruits
and vegetables airlift rates in accordance with the FAR 15.404-1 (b)(2)(ii) using
USTRANSCOM air tender rates. According to the FAR 15.404-1(b)(2)(ii), which
provides guidance for price analysis for commercial and non-commercial items, the
Government may use “comparison of the proposed prices to historical prices paid,
whether by the Government or other than the
Government, for the same or similar items” to          A USTRANSCOM official stated,
determine a fair and reasonable price.                     “the tenders were not FAR
Believing that she complied with the FAR, the          contracts and did not contain any
contracting officer used USTRANSCOM air                 FAR clauses. This allowed the
tender rates rather than actual costs in her price      offeror to decide not to provide
comparison. However, in a teleconference on             service if they deem the risk too
                                                                      high.”

8
  According to a USTRANSCOM official, the “not-to-exceed” tenders used in DLA Troop Support’s fair
and reasonable pricing analysis were based on spot quotes that do not exceed a USTRANSCOM-approved
rate. The official also stated that the vendor may have set the tenders unrealistically high.
9
  Tenders are not contracts. They are a carrier’s offer to provide services at the quoted rate.


                                                15
May 23, 2012, a USTRANSCOM official stated, “the tenders were not FAR contracts
and did not contain any FAR clauses. This allowed the offeror to decide not to provide
service if they deem the risk too high.”

Furthermore, the USTRANSCOM official’s reply stated the tender rate is a “not-to-
exceed rate,” and the business strategy of the air tender offeror involves spot quotes. For
a spot quote, the customer would call the transportation service provider and provide the
exact shipping weight and any special processes, after which the service provider would
forward an actual shipping cost. The not-to-exceed air tender rate is not an actual
shipping cost or a historical price paid. Therefore, the contracting officer’s price
reasonableness determination did not comply with FAR15.404-1(b)(2)(ii).

Tender Rates Used for Fresh Fruit and Vegetable Airlift Fair and
Reasonable Pricing Determination
The contracting officer stated that at the time she performed the fair and reasonable
analysis using USTRANSCOM tender rates, she was not aware that the rates provided
were “not-to-exceed rates.” However, she received an e-mail from USTRANSCOM,
dated December 21, 2010, before her analysis, which made this fact clear and further
                                               noted the tenders may be “unrealistically
    The contracting officer stated…she
                                               high.” DoD Instruction 4500.57 section 4.2,
  was not aware that the rates provided
                                               “Transportation and Traffic Management,”
       were “not-to-exceed rates.”
                                               states, “Non-FAR procurement instruments
  However, she received an e-mail from
                                               such as tenders of service and bills of lading
  USTRANSCOM…before her analysis,
                                               will not compete with FAR procurements
        which made this fact clear.
                                               and shall only be used in limited situations
when FAR procurements cannot meet customer requirements.” If the contracting officer
had used the actual shipping orders placed against USTRANSCOM air tenders to
calculate a price, which were less than the tender prices and still available in DLA’s
Distribution Standard System, she may have been able to negotiate a lower fresh fruits
and vegetables airlift rate.

We consider the recommendation closed because DLA headquarters officials notified us
on April 18, 2013, and we agreed that they can take no further action due to the bilateral
agreement between the government and the subsistence prime vendor after the
contracting officer determined the $3.74 per pound rate was fair and reasonable and
definitized that price via contract modification P00101. However, DLA should use actual
historical pricing data, when available, before not-to-exceed tender rates for determining
fair and reasonable prices on future procurements.

Modification of the Pre-Audit Fresh Fruits and Vegetable Airlift
Price Resulted In a No Recovery Determination
The report stated that DLA Troop Support personnel paid the subsistence prime vendor
approximately $454.9 million for services to airlift fresh fruits and vegetables from
Sharjah, UAE, into Afghanistan from December 13, 2005, through May 28, 2010,
without incorporating the airlift requirement in the contract or documenting that the airlift
price of $3.74 per pound was fair and reasonable. The report recommended that the


                                             16
contracting officer compute the difference between the $3.74 per pound rate paid to the
subsistence prime vendor and the finalized airlift rate since December 2005, after the
airlift rate is established. It recommended that if applicable, DLA Troop Support recover
any differences. (Table 1, Recommendation A2.c)

DLA Troop Support responded that there were no recoverable overpayments from the
subsistence prime vendor because the contracting officer formally modified the contract
through modification P00101, dated August 26, 2011, with the previous price of $3.74
per pound.

We consider the recommendation closed because DLA headquarters officials notified us
on April 18, 2013, and we agreed that they can take no further action. No adjustment to
the airlift of fresh fruits and vegetable rate is legally allowable without the prime
vendor’s agreement due to the bilateral agreement between the government and the
subsistence prime vendor that the contracting officer determined to be fair and reasonable
via contract modification P00101. However, the contracting officer did not properly
support the fair and reasonable pricing determination in this case because she used a
flawed methodology and misinterpreted the FAR, which brought into question whether
those prices that were definitized served the government’s and taxpayers’ best interest.
Consequently, DLA should use actual historical pricing data, when available, before not-
to-exceed tender rates for determining fair and reasonable prices on future procurements.

Controls Not Developed to Address Refunds of Subsistence
Prime Vendor Overpayments
The report stated that DLA Troop Support personnel billed the Army about
$56.5 million in transportation, triwall, and storage costs incurred for FYs 2006 through
2009 to the incorrect fiscal year appropriation on the subsistence prime vendor contract
for Afghanistan. The report recommended that the Commander, DLA Troop Support,
direct subsistence officials to establish controls to ensure that future costs on subsistence
prime vendor contracts, to include refunds of prime vendor overpayments and costs on
invoices that cross fiscal years, are charged to the correct fiscal year appropriation.
(Table 1, Recommendation B3)

DLA Troop Support Finance personnel developed standard operating procedures to
establish controls to prevent future costs on subsistence prime vendor contracts, to
include costs on invoices that cross fiscal years, from incorrect charges to fiscal year
appropriations. However, Finance personnel overlooked including guidance to account
for how they would process refunds of subsistence prime vendor overpayments to avoid
processing the refunds against the incorrect fiscal year appropriation. Thus, DLA Troop
Support remained at risk of incorrectly processing the refunds.

Controls Implemented to Ensure Costs Charged to Correct Fiscal
Year Appropriation
The report identified that systemic problems prevented the STORES from recognizing
that the costs should be charged to the fiscal year in which the services occurred. DLA
Troop Support Finance officials stated they took corrective action at the beginning of FY


                                             17
2009 by entering invoices for costs incurred directly into DLA’s Electronic Business
System, bypassing STORES.

For this process to be effective, DLA Troop Support personnel stated they obligated the
funds in STORES after the order was created to ensure that they were available in the
fiscal year in which the service occurred. They did this on a monthly basis for what they
classified as high-risk premium items, such as private security, premium transportation,
and emergency airlifts. Invoices received after the fiscal year in which the vendor
provided the service did not process through STORES. Once DLA received the invoices
from the subsistence prime vendor, if less than the obligated funds, they stated that they
de-obligated the excess funds and manually entered the invoice into the Electronic
Business System.

Corrective Action Needed to Mitigate Risks Regarding Refunds
The process corrected the previously identified problem of billing the incorrect fiscal year
appropriation, and DLA Troop Support has established effective controls by documenting
the majority of the process in their standard operating procedures. However, the standard
operating procedures did not include the process for contract refunds of subsistence prime
vendor overpayments (credits) to ensure that the credits were processed to the correct
fiscal year appropriations. DLA Troop Support Finance personnel overlooked including
procedures for refunds of subsistence prime vendor overpayments. We consider the
recommendation still open. DLA Troop Support Finance needs to include guidance for
refunds in the standard operating procedures.

Incomplete Review of All Subsistence Prime Vendor Contracts
for Charges to the Correct Fiscal Year Appropriations
The report stated that DLA Troop Support personnel billed the Army about
$56.5 million in transportation, triwall, and storage costs incurred for FYs 2006 through
2009 to the incorrect fiscal year appropriation fund on the subsistence prime vendor
contract for Afghanistan. The report recommended that the Commander, DLA Troop
Support direct subsistence officials to conduct reviews of all subsistence prime vendor
contracts to determine whether costs were charged to the appropriate fiscal year
appropriation and, if costs are identified that were charged incorrectly, to initiate
corrective action. (Table 1, Recommendation B4)

DLA Troop Support Finance personnel did not
review all subsistence prime vendor contracts to          DLA Troop Support Finance
ensure costs were charged to the correct fiscal year      personnel did not review all
appropriation. They conducted a judgmental                 subsistence prime vendor
sample of billings from subsistence prime vendor         contracts to ensure costs were
contracts and performed a limited review of local         charged to the correct fiscal
stock numbers. This occurred because DLA Troop                year appropriation.
Support Finance personnel misunderstood the breadth of the report recommendation,
although they previously agreed to review all subsistence prime vendor contracts in their
management comments to the audit report. Without effectively reviewing all contracts,



                                            18
DLA is at risk of incorrect charges remaining against past fiscal year appropriations,
resulting in possible Antideficiency Act violations.

Judgmental Sample of High-Risk Subsistence Prime Vendor
Contracts for Correct Fiscal Year Appropriation Billings
DLA Troop Support Finance officials conducted a judgmental sample of subsistence
prime vendor contract billings to determine if they charged the correct fiscal year
appropriation because they believed it would suffice to answer the recommendation.
However, this did not address all subsistence prime vendor contracts to identify potential
costs charged to incorrect fiscal years. Their first review focused on billings for high-risk
premium support Local Stock Numbers. According to DLA Troop Support Finance
officials, high-risk billings were those for contracts Outside the Continental United States
(OCONUS) and subject to a process of manual offline payments.

DLA Troop Support Finance officials created 43 OCONUS high-risk premium support
Local Stock Numbers to identify the premium support services that required manual
                                       billings to the customer. These numbers cover the
   Their sample did not include all    billing for storage and handling of operational
       subsistence prime vendor        rations, airlifts, private convoy security, and
   contracts as recommended, even      Defense Base Act Insurance. These types of
      though their limited review      support are not required under the Continental
  identified seven incorrect billings United States (CONUS) contracts. DLA Troop
       valued over $1.07 million.      Support Finance personnel conducted this review
to identify which contracts contained billings for high-risk premium support Local Stock
Numbers. The review identified 3,279 OCONUS billings from FYs 2005 through 2012
valued over $1.26 billion. According to a DLA Troop Support Finance official,
appropriation data from FY 2009 and back in most cases were not readily available. Of
the 3,279 OCONUS billings identified for that period, they sampled 80 (2 percent) of the
billings valued over $13.2 (1 percent) million to determine if they were billed to the
correct fiscal year. Their sample did not include all subsistence prime vendor contracts
as recommended, even though their limited review identified seven incorrect billings
valued over $1.07 million. According to DLA Troop Support Finance officials, they
corrected the errors they identified.

Limited Review of Specific Local Stock Numbers for Fiscal Year
Misappropriation
DLA Troop Support reviewed another judgmental sample of 10,847 subsistence prime
vendor CONUS and OCONUS contract billings for orders placed on specific Local Stock
Numbers in the months of September and October between FYs 2009 and 2010, 2010
and 2011, and 2011 and 2012. The 10,847 billings included in the sample were valued at
about $16.8 million. DLA Troop Support Finance officials categorized the risk of these
billings being charged to the wrong fiscal year appropriation as low since they were not
subject to the manual offline payments identified in the DoD IG Report No. D-2011-047.
In conducting this review, they identified 38 billings valued at $41,627.94 that were
charged to incorrect fiscal year appropriations.



                                             19
These errors were unrelated to the invoice fiscal year crossover problem identified in the
report. According to DLA Troop Support Finance personnel, these errors occurred
because responsible personnel did not update the customer’s profile in the system. The
military services provided the billing data, which finance personnel used to populate the
customer’s profile in the Electronic Business System. If the military services provided
incorrect data or did not provide it in a timely manner, there was a risk of billing to the
wrong appropriation. A DLA Troop Support Finance official stated they worked with the
military services and DFAS to correct these errors when they identified them.

We consider the recommendation still open. DLA Troop Support Finance needs to
review all subsistence prime vendor contracts for incorrect fiscal year appropriation
billings, make corrections as necessary, and update customer profiles accurately and
timely.

Follow-on Reviews Required to Determine Whether
Corrective Actions Addressed Problems
DLA Troop Support implemented corrective actions on three other report
recommendations. However, due to the on-going litigation, we did not validate the
analysis supporting the contracting officer’s unilateral definitization of premium
transportation prices or the accuracy of supporting data for the subsequent overpayment
calculated of about $756 million. Once litigation is resolved an audit follow-up review
will determine which, if any, of the following recommendations might require further
corrective action:

    • determining fair and reasonable prices for premium transportation services,
    • calculating and recovering overpayments for premium transportation, and
    • refunding premium transportation overpayments to the Army.

Fair and Reasonable Prices for Premium Transportation
Services Determined and Change Order Definitized
The report stated that the contracting officer did not definitize or issue contract
modifications in a timely manner, as required by the FAR and the DFARS. Specifically,
the contracting officer did not establish permanent transportation rates in a timely
manner, which resulted in potentially overpaying the subsistence prime vendor
$98.4 million for transportation within Afghanistan and overbilling the Army
approximately $108.5 million as a result of the overpayments. The report recommended
that the contracting officer for subsistence support in Afghanistan determine fair and
reasonable prices for transportation and use those prices to definitize the August 2005
verbal change order. (Table 1, Recommendation A1.a – Premium Transportation Only)

The DLA Troop Support subsistence contracting officer determined prices for premium
transportation and used those prices to unilaterally definitize the August 2005 verbal
change order through a contract modification. The contracting officer reached this
pricing determination using results of a DCAA audit report on the previously



                                            20
undefinitized contract action, dated August 29, 2011, and an internal technical analysis
report, dated June 23, 2011.

The contracting officer stated she unilaterally definitized the prices for fixed-wing,
                                             rotary-wing, and ground premium
        The subsistence prime vendor         transportation rates through contract
    appealed the contracting officer’s       modification P00108 and sent a letter of the
  decision to the Armed Services Board       contracting officer’s final decision to the
   of Contract Appeals, where it was in      subsistence prime vendor, dated December 9,
     litigation at the time of our audit.    2011, after negotiations with the subsistence
prime vendor were unsuccessful. The subsistence prime vendor appealed the contracting
officer’s decision to the Armed Services Board of Contract Appeals (ASBCA) where it
was in litigation at the time of our audit. We did not validate the supporting data used to
make this fair and reasonable pricing determination since the issue was in litigation.
Therefore, we consider this recommendation still open.

Recovery of Overpayments for Premium Transportation Fees
Ongoing
The report stated that the contracting officer did not establish permanent transportation
rates in a timely manner and recommended that DLA Troop Support compute and
recover the overpayments of the difference between the reimbursement rates paid to the
subsistence prime vendor and the finalized rates since December 2005, after the rates
were established. (Table 1, Recommendation A1.c – Premium Transportation Only)

DLA Troop Support computed and began
recovering overpayments totaling about             DLA Troop Support began recovering
$756 million for transportation fees through            about $21.7 million per month
administrative offset based on the definitized       through  36 planned installments by
prices. Specifically, on February 28, 2012,        withholding parts of payments due the
DLA Troop Support began recovering about                  subsistence prime vendor.
$21.7 million per month through 36 planned
installments by withholding parts of payments due to the subsistence prime vendor. The
portion of funds being administratively offset from payments to the subsistence prime
vendor will be held in a DFAS suspense account and will be disbursed consistent with the
outcome of the pending litigation to be decided by the ASBCA. DLA Troop Support’s
36-month strategy to recover the total calculated premium transportation overpayments
ran the risk of leaving $282 million unrecovered (13 administrative offsets valued at
$21.7 million each). This is because the contract ends no later than December 2013, even
with a 1-year bridge contract awarded to the subsistence prime vendor, effective June 22,
2012. The contract may potentially end sooner if the new subsistence prime vendor is
operationally ready to begin work before then. DLA Troop Support was considering
their options provided the ASBCA upholds DLA Troop Support’s position. We did not
validate the accuracy of the supporting data for their calculations because of ongoing
litigation over the unilaterally definitized premium transportation prices. We consider
this recommendation still open pending the completion of the litigation. DLA Troop
Support needs to develop a plan of action, to include milestones, for recovering the


                                            21
potential remaining premium transportation overpayments consistent with the ASBCA
resolution of this matter.

Refunds to the Army for Premium Transportation Overpayments
Ongoing
The report recommended the contracting officer coordinate with DLA Troop Support
Finance personnel to refund the Army for any premium transportation overpayments and
associated surcharges recovered from the subsistence prime vendor, given the previously
reported premium transportation fair and reasonable pricing problems. (Table 1,
Recommendation A1.d – Premium Transportation Only)

As discussed earlier, DLA Troop Support took corrective actions to calculate and recover
premium transportation overpayments totaling about $756 million. A DLA Troop
Support Finance official stated that they meet with the Office of the U.S. Army Deputy
Chief of Staff quarterly and plan to finalize repayment options for the premium
transportation overpayments recovered post-litigation. We consider this recommendation
still open based on the ongoing litigation.


Conclusion
DLA Troop Support implemented corrective actions to address recommendations
pertaining to developing a QASP, reviewing contract administration, determining the
need for administrative actions, and correcting funds refunded and billed to the wrong
fiscal year. However, DLA Troop Support must do more to mitigate the remaining
problems and risk areas associated with fair and reasonable pricing determinations,
recovery of potential overpayments and controls over the proper use of appropriations.

To ensure these changes and improvements, the Commander, Defense Logistics Agency
Troop Support should initiate corrective action, including a time-phased plan with
measurable goals and metrics, to address the open recommendations as long as such
action is consistent with the ASBCA resolution of this matter.

Recommendations, Management Comments, and Our
Response
Revised, Renumbered, and Deleted Recommendations
The Vice Director, DLA provided comments on the finding for the Commander, DLA
Troop Support. Based on comments from the Vice Director, DLA, we updated the
finding conclusions in the following sections: Triwall Overpayment of $25.9 Million
Asserted As Not Valid (page 11); No Coordination of Fresh Fruits and Vegetables Airlift
Overpayments (page 14); No Request to Have DCAA Determine Fair and Reasonable
Prices for Fresh Fruits and Vegetables Airlift (page 14); Questionable Fair and
Reasonable Pricing Determination Methodology for Airlift of Fresh Fruits and
Vegetables (page 15); and Modification of the Pre-Audit Fresh Fruits and Vegetable
Airlift Price Resulted In a No Recovery Determination (page 16).


                                           22
Specifically, we agree with DLA that no adjustment to the airlift of fresh fruits and
vegetable or triwall rates is legally allowable without the prime vendor’s agreement due
to the bilateral agreements between the Government and the subsistence prime vendor
that the contracting officer determined to be fair and reasonable via contract
modifications P00101 and P00102 respectively. However, the contracting officer did not
properly support the fair and reasonable pricing determinations in either instance because
she used flawed methodologies, misinterpreted the FAR, and did not maintain supporting
documentation for the triwall pricing determination, which brought into question whether
those prices that were definitized served the Government’s and taxpayers’ best interest.
As a result of management comments, we deleted draft Recommendation 1.b and revised
Recommendation 1.c, now 1.b. Draft Recommendations 1.c through 1.e have been
renumbered as Recommendations 1.b through 1.d. See Appendix D for DLA
management comments to the draft report.

We recommend that the Commander, Defense Logistics Agency Troop Support:

       1. Implement corrective actions to address all recommendations, with the
exception of Recommendations A1.b, A2.a, A2.b, A2.c, A3, A4.a, A4.b, B1, and B2,
in DoD Office of Inspector General Report No. D-2011-047, “Improvements Needed
in Contract Administration of the Subsistence Prime Vendor Contract for
Afghanistan,” March 2, 2011, specifically:

           a. Initiate corrective actions to recover premium transportation fees and
              refund the Army after litigation is completed.

Management Comments
The Vice Director, DLA, agreed and stated that DLA would continue to recover premium
transportation overpayments and take action to refund the Army, as appropriate, based
upon completion and consequent resolution of the litigation, ASBCA case 57884,
scheduled for April through May 2014. As of April 1, 2013, DLA, through DFAS, has
withheld $304 million from the subsistence prime vendor via administrative offset
against contract payments and plans to continue to collect any remaining overpayments
through other Government contracts with the subsistence prime vendor after the current
subsistence prime vendor contract expires.

Our Response
Comments from the Vice Director, DLA, were responsive. No additional comments are
required.

           b. Use actual historical pricing data, when available, before not-to-
              exceed tender rates in determining fair and reasonable prices for
              future procurements.




                                           23
Management Comments
The Vice Director, DLA, disagreed and stated that DLA used the price analysis
techniques in FAR Part 15.404-1(b) to determine the airlift of fresh fruits and vegetable
rate fair and reasonable and that a legal opinion from its Office of Counsel supported that
use of non-FAR commercial tender rates in the price analysis was allowable. The Vice
Director also stated that the uncertain nature and fluid threat conditions in Afghanistan
further justified the use of the USTRANSCOM “not-to-exceed” tender rates as a basis for
comparison and noted other factors such as gross weight, types of aircraft, and delivery
conditions were also factored into their comparison to the subsistence prime vendor’s
proposed rate. Finally, the Vice Director stated that they obtained documentation from
USTRANSCOM regarding the rates actually paid under the tender agreements, which
after adjusting for some of the differences between USTRANSCOM orders and the
subsistence prime vendor contract, supported to their conclusion that the originally
contracted $3.74 per pound rate was reasonable.

Considering DLA’s position that its pricing determination was based on reasonable
conclusions, the $3.74 per pound rate was bilaterally agreed to by DLA Troop Support
and the subsistence prime vendor as a fair and reasonable rate and finalized in contract
modification P00101. No adjustment to the airlift of fresh fruits and vegetable rate was
legally allowable without the prime vendor’s agreement.

Our Response
Comments from the Vice Director, DLA, were partially responsive. We agree with DLA
that no adjustment to the airlift of fresh fruits and vegetable rate is legally allowable due
to the bilateral agreement between the Government and the subsistence prime vendor that
resulted in the contracting officer issuing contract modification P00101. However, we
concluded that DLA was non-compliant with the FAR 15.404-1(b)(2)(ii). The tenders
are not actual rates and therefore were neither historical contract prices “paid” nor
“proposed” contract prices. The contracting officer had access to the actual rates in
DLA’s Distribution Standard System and should have used them in her fair and
reasonable pricing analysis. The conditions in Afghanistan and other adjustment factors
used in their pricing determination does not explain why the use of the “not-to-exceed”
tender rates were chosen as a basis for comparison over rates paid under the
USTRANSCOM tender agreements. Contrary to DLA’s response, our review of the
May 24, 2011 pricing determination for the airlift of fresh fruits and vegetables that led to
modification P00101, did not include any details regarding actual rates paid under the
USTRANSCOM tender agreements. Furthermore, we have documentation of DLA
Troop Support contracting officials making inquiries for rates paid under the tender
agreements only after modification P00101, was issued and our follow-up audit was
underway. We request that the Commander, Defense Logistics Agency Troop Support,
provide comments on the revised recommendation in the final report.

           c. Issue guidance on how to process refunds of overpayments on
              subsistence prime vendor contracts that cross fiscal years to the
              correct fiscal year appropriations and update customer profiles
              accurately and timely.


                                             24
Management Comments
The Vice Director, DLA, agreed and stated that DLA created a standard operating
procedure for Afghanistan offline payments for distribution fees. In addition, the Vice
Director stated that DLA would work with DFAS areas supporting the Military Services
to correct any discrepancies and make any necessary adjustments to billing and STORES
profiles. Any adjustments or corrections are made in accordance with Volume 4, Chapter
3 of the DoD Financial Management Regulation, which contains information on how to
process customer credits.

Our Response
While the Vice Director, DLA, agreed with our recommendation, comments were
partially responsive. We agree Volume 4, Chapter 3 of the DoD Financial Management
Regulation contains information on how to process customer credits. However, it does
not define specific roles and responsibilities or provide detailed processes and procedures
for administering requirements at the local level. We request that the Commander,
Defense Logistics Agency Troop Support, provide additional comments on the
recommendation in the final report.

           d. Conduct reviews of all subsistence prime vendor contracts in effect
              during FYs 2006 through 2012 to determine whether costs are
              charged to the appropriate fiscal year appropriation. Initiate
              corrective actions if incorrect charges are identified.

Management Comments
The Vice Director, DLA, partially agreed and stated that time and cost constraints
prevent DLA from pulling data prior to 2009. In addition, the Vice Director stated that
DLA reviewed CONUS and OCONUS contracts identified as high-risk and provided
details of the respective reviews; which were already discussed in detail on pages 18
through 20 in this report.

The Vice Director stated that DLA implemented effective corrective actions. In addition,
the Vice Director stated that, to ensure effectiveness of actions taken, DLA will pull all
available orders for high-risk items from October 2011 through December 2012 to
confirm that each order was billed to the correct appropriation by April 30, 2013.

Our Response
Comments from the Vice Director, DLA, were partially responsive. While we agree a
review of all subsistence prime vendor contracts could be resource-intensive, we require
additional details specific to the time and cost constraints to which DLA is referring. We
request that the Commander, Defense Logistics Agency Troop Support, provide
additional comments on the recommendation in the final report.

      2. Develop a time-phased plan with measurable goals and metrics regarding
implementing recommendations in DoD Office of Inspector General Report No.




                                            25
D-2011-047, “Improvements Needed in Contract Administration of the Subsistence
Prime Vendor Contract for Afghanistan,” March 2, 2011.

Management Comments
The Vice Director, DLA, agreed and stated that DLA is developing a time-phased plan
with measurable goals and metrics for tracking and implementing recommendations in
the prior report by May 31, 2013.

Our Response
Comments from the Vice Director, DLA, were responsive. No additional comments are
required.

       3. Educate contracting officers on the requirement to maintain
documentation of the basis for decisions made and data used for fair and reasonable
price determinations.

Management Comments
The Vice Director, DLA, agreed and stated that DLA will issue guidance to the
contracting community on the requirements to maintain documentation of the basis for
the decisions made and data used for fair and reasonable price determinations by May 31,
2013.

Our Response
Comments from the Vice Director, DLA, were responsive. No additional comments are
required.




                                          26
Appendix A. Scope and Methodology
We conducted this performance audit from February 2012 through July 2013 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

This is a follow-up on the status of agreed upon actions based on recommendations made in
DoD IG Report No. D-2011-047, “Improvements Needed in Contract Administration of the
Subsistence Prime Vendor Contract for Afghanistan,” March 2, 2011. We assessed DLA Troop
Support’s efforts to implement the recommendations in DoD IG Report No. D-2011-047 and
determined whether corrective actions addressed the problems. The report stated that
subsistence contracting officials did not provide sufficient oversight of contract costs and
performance. Specifically, the contracting officer did not adhere to certain provisions of the
FAR and the DFARS or develop a QASP and written procedures to monitor contractor costs and
performance. We obtained and reviewed documentation of corrective actions taken as a result of
the audit, in particular, the recoupment of overpayments identified in the audit report, and
evaluated whether DLA Troop Support implemented sufficient internal controls to ensure
effective contract administration of the subsistence prime vendor contract for Afghanistan. We
discussed DLA Troop Support’s efforts to improve contract administration of the subsistence
prime vendor contract for Afghanistan with DLA Troop Support personnel from the Command,
Garrison Feeding Division OCONUS Subsistence, and finance offices.

We reviewed applicable Federal and DoD criteria related to the Subsistence Prime Vendor
Program, contract quality assurance and surveillance requirements, contract pricing and
documentation, undefinitized contract actions, and distribution of budgetary resources. The
specific criteria reviewed included United States Code, the Federal Acquisition Regulation, the
Defense Federal Acquisition Regulation Supplement, Office of Management and Budget
guidance, DoD Directives, DoD Instructions, and DoD Regulations. We reviewed and discussed
existing internal control procedures and reviewed the results of corrective actions. Because of
timeframes required to test the respective controls, we limited our review to determining whether
DLA Troop Support developed a QASP, not whether they effectively implemented the QASP.

Computer-Processed Data Were Sufficiently Reliable
We obtained Enterprise Business System data from DLA Troop Support Finance for transactions
dated from FYs 2006 through 2009. These transactions were based on $56.5 million in
billings identified in the report as assigned to the incorrect fiscal year appropriation. We
reviewed this data to determine whether DLA Troop Support refunded and billed these
misappropriated funds to the correct fiscal years. We conducted tests of the data through the
course of our audit work, including comparing the transactions against supporting records such
as: billing reports, credit/debit memos, and order/receipt information reports obtained from DLA
Troop Support. From the tests and audit work we performed, we determined that the data were
sufficiently reliable for our purpose.




                                                27
Use of Technical Assistance
We obtained legal input from the DoD Inspector General’s Office of General Counsel regarding
DLA Troop Support’s decision to use non-FAR-based tenders in their fair and reasonable pricing
determination for fresh fruits and vegetables airlift rates from Sharjah, UAE, into Afghanistan.

Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) has issued one
report discussing management of DLA’s Subsistence Prime Vendor Program. Unrestricted DoD
IG reports can be accessed at http://www.dodig.mil/pubs/index.cfm.

DoD IG
DoD IG Report No. D-2011-047, “Improvements Needed in Contract Administration of the
Subsistence Prime Vendor Contract for Afghanistan,” March 2, 2011




                                              28
Appendix B. Status of Corrective Actions for
DoD IG Report No. D-2011-047
Recommendations
Rec. No.           DLA Corrective Action Addresses                                Remarks                       See Page
                     Problem? (Y/N/Not Tested)                                                                    No.

A1.a                            N (triwall);                                  (closed: triwall);                9 and 20


                   Not Tested (premium transportation)                (open: premium transportation)
A1.b                               N                                             (closed)                          11
A1.c                            N (triwall);                                  (closed: triwall);                 12 and
                                                                                                                   21
                   Not Tested (premium transportation)                (open: premium transportation)
A1.d               N (triwall & airlift of fresh fruits and        (closed: triwall & airlift of fresh fruits    13, 14,
                                vegetables);                                   and vegetables);                  and 22




                   Not Tested (premium transportation)                (open: premium transportation)
A2.a                                  N                                            (closed)                        14
A2.b                                  N                                            (closed)                        15
A2.c                                  N                                            (closed)                        16
A3                                    Y                                            (closed)                        6
A4.a                                  Y                                            (closed)                        7
A4.b                                  Y                                            (closed)                        7
B1                                    Y                                            (closed)                        8
B2                                    Y                                            (closed)                        8
B3                                    N                                             (open)                         17
B4                                    N                                             (open)                         18

     Source: DoD IG Analysis.




                                                              29
Appendix C. Regulatory Guidance
Federal Acquisition Regulation Part 10, “Market Research”
This guidance prescribes policies and procedures for conducting market research to arrive at the
most suitable approach to acquiring, distributing, and supporting supplies and services.
Part 10.002(e) states, “Agencies should document the results of market research in a manner
appropriate to the size and complexity of the acquisition.”

Collection Installments, 31 CFR sec. 901.8 (2011)
This guidance states, “The size and frequency of installment payments should bear a reasonable
relation to the size of the debt and the debtor’s ability to pay. If possible, the installment
payments should be sufficient in size and frequency to liquidate the debt in three years or less.”

Federal Acquisition Regulation Subpart 15.4, “Contract
Pricing”
This subpart prescribes the cost and price negotiation policies and procedures for pricing
negotiated prime contracts (including subcontracts) and contract modifications, including
modifications to contracts awarded by sealed bidding. Part 15.404-1(b)(2)(ii) states that:

               “comparison of the proposed prices to historical prices paid, whether by the Government or other
               than the Government, for the same or similar items” is an example of a technique to ensure a fair
               and reasonable price.

DoD Instruction 4500.57 section 4.2, “Transportation and
Traffic Management”
This guidance states:

               [n]on-FAR procurement instruments such as tenders of service and bills of lading will not
               compete with FAR procurements and shall only be used in limited situations when FAR
               procurements cannot meet customer requirements. To the maximum extent practicable, FAR and
               non-FAR procurements will be performance-based, mode-neutral, and time-definite; use best
               value acquisition processes and full and open competition; and comply with source preference
               laws.

Defense Transportation Regulation 4500.9-R, Part II, Chapter
201, “Rate Quotes – Tenders”
This guidance states that tenders are not contracts. They are:

               a carrier’s offer to provide services at the quoted rate. The contract is created after the
               Transportation Officer offers the movement and the carrier accepts the movement under a Bill of
               Lading. These are generally best suited for simple procurements where best value is deemed the
               low cost responsive carrier. It is not suitable when a shipper needs a cost/price technical tradeoff
               analysis to determine the best value carrier.




                                                       30
Section 1502(a), Title 31, United States Code (31 U.S.C. §
1502(a))
This is commonly referred to as the “Bona Fide Needs Rule,” which states an appropriation is
available to pay expenses incurred during the time that the appropriation is available for
obligation.

DoD Regulation 7000.14-R, “DoD Financial Management
Regulation” Volume 14, Chapter 3. Paragraph 030101
The regulation provides that within two weeks of discovering a potential violation of the
Antideficiency act, the activity concerned will:

               report the potential violation, with the related information in paragraphs 030101.A-J, through
               command channels to the applicable Office of the Assistant Secretary of the Military Department
               for Financial Management and Comptroller or the Senior Financial Manager for other Department
               of Defense (DoD) Components (referred herein as DoD Component).
                        A. Accounting classification of funds involved,
                        B. Name and location of the activity where the alleged violation occurred,
                        C. Name and location of the activity issuing the fund authorization, if different than
                                 subparagraph 030101.B,
                        D. Amount of the alleged violation,
                        E. Nature of the alleged violation,
                        F. Date the alleged violation occurred and date discovered,
                        G. Means of discovery,
                        H. Description of the facts and circumstances of the case,
                        I. Anticipated dates of completion of the preliminary review and submission of the report,
                                 and
                        J. The name(s) and work phone number(s) of the preliminary investigator or the members
                                 of the preliminary review team.

DoD Regulation 7000.14-R, “DoD Financial Management
Regulation” Volume 14, Chapter 3. Paragraph 030202
This guidance states:

               When the DoD Component has evidence of a potential violation, as a result of the evaluation in
               section 0301, the DoD Component shall assign a preliminary review investigator and/or a review
               team to research the applicable business transactions and accounting records to determine the
               amount and cause of the potential statutory violation. The preliminary review should be
               completed within 14 weeks from the date of initial discovery.

Defense Federal Acquisition Regulation Supplement Subpart
242.71, “Voluntary Refunds”
This subpart states:

               A voluntary refund is a payment or credit (adjustment under one or more contracts or
               subcontracts) to the Government from a contractor or subcontractor that is not required by any
               contractual or other legal obligation. Follow the procedures at PGI 242.7100 for voluntary
               refunds.




                                                      31
Defense Federal Acquisition Regulation Supplement,
Procedures, Guidance, and Information 242.71, “Voluntary
Refunds”
This guidance states, “A voluntary refund may be solicited (requested by the Government) or
unsolicited.”




                                              32
Defense Logistics Agency Comments




                 Click to add JPEG file




                                    
                          Final Report
                           Reference




Click to add JPEG file
                         Deleted




                 
                          Final Report
                           Reference




Click to add JPEG file   Revised and
                         renumbered as
                         Recommendation 1.b.




                 
Click to add JPEG file




                 
                          Final Report
                           Reference




                         Renumbered as
                         Recommendation
                         1.c.




                         Renumbered as
                         Recommendation
Click to add JPEG file   1.d.




                 
Click to add JPEG file




                 
Click to add JPEG file




                 
